                The Indian Tribal Governments Office Can
                 Improve the Effectiveness, Consistency,
                  and Efficiency of Compliance Checks

                                 September 2005

                       Reference Number: 2005-10-158




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   September 27, 2005


      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - The Indian Tribal Governments Office Can
                                    Improve the Effectiveness, Consistency, and Efficiency of
                                    Compliance Checks (Audit # 200510010)


      This report presents the results of our review to determine whether the Internal
      Revenue Service (IRS) Indian Tribal Governments (ITG) office executes compliance
      checks1 effectively and consistently to better understand its customers and to identify
      appropriate remedies for compliance issues and has developed a methodology for
      measuring the impact of compliance checks on its customer base.
      The ITG office is responsible for administering Federal tax laws for the 564 Federally
      recognized Indian Tribal governments and their approximately 2,100 related entities.
      The ITG office performs compliance checks to understand customer needs and to
      identify appropriate remedies for compliance issues. Compliance checks are an
      important part of the ITG office’s strategy to reduce the need for enforcement by
      keeping abreast of trends that are emerging among the tax filing and payment
      characteristics of tribal entities.
      In summary, ITG office management devotes a significant portion of their Examination
      resources to conducting compliance checks. However, ITG office management advised
      us they are currently unable to determine the collective impact of compliance checks on
      their customers’ understanding and compliance with Federal tax laws or the long-term
      impact on compliance levels. While ITG office management’s process for conducting
      compliance checks enabled the ITG office to better understand tribal entities and


      1
       Unlike an examination or audit, a compliance check does not seek to determine a tax liability for any particular
      period; it is voluntary, and the tribe may refuse to participate in a compliance check without penalty.
                                                        2

identify appropriate remedies for compliance issues, the impact was limited to the
specific tribal entities involved with the compliance checks.
ITG office management advised us that measuring the impact of compliance checks on
compliance is difficult because information such as reasons for filing delinquent returns
is currently not available. However, ITG office management has completed one study
and is planning another one to help identify general indicators of overall compliance
levels. A second difficulty is the IRS is not always aware of and cannot predict the
external factors that may affect a tribal entity’s filing behavior. These external factors
include periodic tribal management turnovers and the use of accountants, tax attorneys,
or other highly experienced payroll specialists by some tribes versus tribes whose
bookkeepers may be unfamiliar with the tax laws.
We also found the ITG office field specialists generally followed ITG office
management’s process for conducting compliance checks for our sample cases.
However, the process did not ensure compliance checks were consistently, timely, and
efficiently worked; updates to tribal entity information were documented in the
Compliance Check Report2 and monitored; and compliance check results were used to
objectively improve case selection. In addition, we identified instances where a
significant number of delinquent returns were obtained and processed, which is not the
main focus of compliance checks.
The Outreach, Planning, and Review office Quality Review function staff determined
five compliance checks closed in Fiscal Year (FY) 2004 did not qualify for closure as
completed compliance checks; however, we noted they were included in the number of
completed compliance checks reported by ITG office management in FY 2004. An error
in a database report formula and a case closing error resulted in inaccurate information
reported from the database. Further, the sample of compliance checks we reviewed
was under ITG office management’s control throughout the process from assignment
through case closure. While this was important for physical inventory control, the
database used to track cases through the compliance check process was not an
effective or efficient tool for monitoring the progress of cases. Therefore, ITG office
management decided to manually monitor cases to better control work in progress and
reduce the length of time cases are open.
As a result of ITG office management’s emphasis on reducing the time to complete
compliance checks, we determined the time it takes to initiate, execute, and close
compliance check cases has been significantly reduced. The time period for completing
compliance checks dropped from an average of 390 days for those initiated in the third
quarter of FY 2002 to an average of 123 days for those initiated in the third quarter of
FY 2004. In evaluating the length of time for the ITG office to complete compliance
checks, we identified one additional opportunity to further reduce the overall time period
- making initial contact with the tribe. Although there was a decrease from 155 to
108 days for the field specialists to contact the tribes, this is longer than what group

2
  The Compliance Check Report is a template that documents the results of the compliance check. It includes
information about the tribal entity and contains the field specialist’s assessment of compliance risk. The
Compliance Check Report is used to ensure consistency of completed compliance checks.
                                                         3

managers expect. There are currently no time standards for the ITG office field
specialists to initiate contact with the tribes for compliance check cases. Finally, we
determined the use of current technology would improve the efficiency of preparing
Document Transmittals (Form 3210) for compliance checks or other cases that need to
be transferred between offices.
We recommended the Director, ITG, Tax Exempt and Government Entities (TE/GE)
Division, correct the data for the compliance check cases that were closed incorrectly
and revise the formula in the ITG Database3 report that calculates the number of
completed compliance checks, require information identified during compliance checks
that should be used to update the ITG Database or the IRS Master File4 to be recorded
on the Compliance Check Report, establish time standards to clarify the expectation of
contacting tribes as soon as possible to initiate compliance checks, and consider
automating the document transmittal process.
Management’s Response: The Commissioner, TE/GE Division, agreed with our
recommendations and is implementing corrective actions. ITG office management
corrected the data for the compliance check cases that were closed with the incorrect
closing code, revised the ITG Database formula that calculates the number of
completed compliance checks, and issued guidance requiring initial customer contact
within 60 days of case assignment to the group. Additionally, ITG office management is
in the process of revising the ITG office work templates. The revised Compliance
Check template will include a summary sheet to capture all of the data updates reported
during the compliance check. TE/GE Division management considered automating the
document transmittal process and decided to address this issue during future
development of the TE/GE Division Reporting and Electronic Examination System.
Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




3
  The ITG Database was developed over the past several years and contains data from the IRS’ main database
(Master File), the Bureau of Indian Affairs, and other sources on Indian Tribal governments and their related
enterprises. The ITG Database records contain more than 200 data fields and include information such as tribal
entity data, filing requirements, and line item information from filed returns such as wages paid. The ITG Database
is made up in part by the Inventory Database, the Outreach Assignment Database, and the Tribal Compliance
Database.
4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
             The Indian Tribal Governments Office Can Improve the Effectiveness,
                      Consistency, and Efficiency of Compliance Checks




                                                  Table of Contents


Background ............................................................................................... Page 1
The Impact of the Compliance Check Process on Voluntary
Compliance Cannot Be Determined at This Time ..................................... Page 2
Compliance Checks Can Be Performed More Effectively,
Consistently, and Efficiently ...................................................................... Page 6
         Recommendation 1: .......................................................................Page 18
         Recommendations 2 through 4:.....................................................Page 19

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 20
Appendix II – Major Contributors to This Report ....................................... Page 22
Appendix III – Report Distribution List ....................................................... Page 23
Appendix IV – Outcome Measures............................................................ Page 24
Appendix V – Indian Tribal Governments Office Compliance
Check Process .......................................................................................... Page 25
Appendix VI – Management’s Response to the Draft Report .................... Page 27
         The Indian Tribal Governments Office Can Improve the Effectiveness,
                  Consistency, and Efficiency of Compliance Checks

                                The Internal Revenue Service (IRS) Indian Tribal
Background
                                Governments (ITG) office is responsible for administering
                                Federal tax laws for the 564 Federally recognized Indian
                                Tribal governments (tribes) and their approximately
                                2,100 related entities. The ITG office is part of the
                                Government Entities function of the Tax Exempt and
                                Government Entities (TE/GE) Division.
                                The mission of the ITG office is to provide its customers
                                top-quality services, by helping them understand and
                                comply with applicable laws, and to protect the public
                                interest by applying the tax law with integrity and fairness
                                to all. To help accomplish its mission, the ITG office works
                                with tribes to lessen the need for enforcement by keeping
                                abreast of trends that are emerging among the tax filing and
                                payment characteristics of tribal entities.
                                The ITG office began performing compliance checks1 in
                                Fiscal Year (FY) 2001 to obtain current information on its
                                customers, better understand customers’ needs, and identify
                                appropriate remedies to compliance issues. During a
                                compliance check, field specialists interview key personnel
                                in the tribe, inquire about the selected tribal entity, and ask
                                additional questions about filing requirements for the tribe
                                to determine whether all record keeping and information
                                reporting requirements are met. The field specialists enter
                                information obtained during the compliance check on an
                                ITG office Compliance Check Report.2
                                This review was performed at the ITG office National
                                Headquarters in Washington, D.C.; the ITG Outreach,
                                Planning, and Review (OPR) offices in Buffalo, New York,
                                and Oklahoma City, Oklahoma; and the ITG office field
                                groups in Buffalo, New York; Fargo, North Dakota;
                                Santa Ana, California; and San Bernardino, California,
                                during the period November 2004 through May 2005. The


                                1
                                  Unlike an examination or audit, a compliance check does not seek to
                                determine a tax liability for any particular period; it is voluntary, and the
                                tribe may refuse to participate in a compliance check without penalty.
                                2
                                  The Compliance Check Report is a template that documents the results
                                of the compliance check. It includes information about the tribal entity
                                and contains the field specialist’s assessment of compliance risk. The
                                Compliance Check Report is used to ensure consistency of completed
                                compliance checks.
                                                                                                    Page 1
           The Indian Tribal Governments Office Can Improve the Effectiveness,
                    Consistency, and Efficiency of Compliance Checks

                                  audit was conducted in accordance with Government
                                  Auditing Standards.
                                  This is the second audit we have conducted of the ITG
                                  office’s compliance check process. In FY 2004, we
                                  reviewed the methodology used by the ITG office to select
                                  tribal entities for compliance checks.3 In this audit, we
                                  evaluated the ITG office compliance check process from the
                                  assignment of the compliance check to the ITG office field
                                  group through the closure of the case by the OPR office.
                                  Because all compliance checks are subject to quality review,
                                  we relied on the quality review reports and did not evaluate
                                  the quality of the field specialists’ work. Additionally, we
                                  did not validate the compliance check data in the ITG
                                  Database.4 Detailed information on our audit objectives,
                                  scope, and methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.

The Impact of the Compliance      Although ITG office management has devoted a significant
Check Process on Voluntary        portion of their Examination resources to conducting
Compliance Cannot Be              compliance checks in an effort to better understand their
Determined at This Time           customers and to lessen the need for enforcement, they
                                  advised us they are currently unable to determine the
                                  collective impact of compliance checks on their customers’
                                  understanding and compliance with Federal tax laws or the
                                  long-term impact on compliance levels. To date, ITG office
                                  management’s only performance goal for compliance
                                  checks is the number conducted each fiscal year. This goal
                                  measures the number of tribal entities that receive
                                  compliance checks, but it gives little indication of the
                                  compliance check’s impact on a tribal entity’s


                                  3
                                    The Process for Assigning Cases Should Be Strengthened to Provide
                                  Better Coverage to Indian Tribal Governments Most in Need of
                                  Compliance Checks (Reference Number 2004-10-191, dated
                                  September 2004).
                                  4
                                    The ITG Database was developed over the past several years and
                                  contains data from the IRS main database (Master File), the Bureau of
                                  Indian Affairs, and other sources on Indian Tribal governments and their
                                  related enterprises. The ITG Database records contain more than
                                  200 data fields and include information such as tribal entity data, filing
                                  requirements, and line item information from filed returns such as wages
                                  paid. The ITG Database is made up in part by the Inventory Database,
                                  the Outreach Assignment Database, and the Tribal Compliance
                                  Database.
                                                                                                    Page 2
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                       understanding of its tax obligations and level of voluntary
                       compliance.
                       In addition, while the ITG office management’s process for
                       conducting compliance checks enabled the ITG office to
                       better understand tribal entities and identify appropriate
                       remedies for compliance issues, the impact was limited to
                       the specific tribal entities involved with the compliance
                       checks. ITG office management advised us the Compliance
                       Check Report, used to document the compliance check, was
                       not designed or intended to evaluate the impact of the
                       compliance check on all tribal-related entities. ITG office
                       management also advised us that compliance checks are a
                       momentary snapshot of compliance behavior and issues
                       within a single entity. In addition, they have found there
                       is no compliance relationship between tribal entities
                       (e.g., if one tribal entity is compliant on filing returns, it
                       does not necessarily mean another entity of that same tribe
                       would also be compliant), and there is no method to draw a
                       correlation between the differing entities.
                       We also identified opportunities to improve the
                       effectiveness, consistency, and efficiency of the compliance
                       check process once cases are assigned to the field groups.
                       This issue is presented in more detail later in the report.
                       Methodologies to measure the impact of compliance
                       checks have not been implemented
                       The ITG office compliance check program has been in
                       existence since FY 2001, and ITG office management is
                       continuing to develop the program to make the case
                       selection process more effective and to gather better data
                       from the ITG office customers. However, ITG office
                       management has not implemented a methodology for
                       measuring compliance levels in their customer base, the
                       impact compliance checks have on overall compliance, and
                       whether the ITG office is getting the desired benefit out of
                       the compliance check process. By the conclusion of our
                       audit, ITG management had drafted a research plan to try to
                       measure the impact compliance checks have on overall
                       compliance levels for their customers.
                       Although the number of compliance checks completed each
                       year has shown an increase from 4 in FY 2001 to 272 in

                                                                              Page 3
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                       FY 2004,5 the compliance checks completed each year
                       represent a small portion of the approximately
                       2,100 entities related to the 564 Federally recognized Indian
                       tribes. ITG office field specialists primarily work
                       examinations and compliance checks, although they may
                       also conduct education and outreach for the tribes. The
                       TE/GE Division’s February 3, 2005, Business Performance
                       Review showed that, for FY 2004, the ITG office had
                       39 Examination Full-Time Equivalents6 who closed
                       313 examination cases and completed 2717 compliance
                       checks. While the report does not break down the amount
                       of resources spent on examinations versus compliance
                       checks, it does indicate a significant part of the field groups’
                       inventory is devoted to compliance checks.
                       The Government Performance and Results Act of 19938
                       requires major functions of operations to specify their
                       general goals and objectives in annual plans and include
                       outcome-related goals; to determine the skills, technology,
                       and human capital necessary to achieve these goals; and to
                       determine the management information necessary to
                       monitor whether they are achieving their goals. Without an
                       adequate method to measure the compliance levels and the
                       impact compliance checks have on compliance in their
                       customer base, ITG office management cannot determine
                       whether compliance checks are achieving the desired
                       benefits to the Federal Government or to their customers.
                       ITG office management advised us that measuring the
                       impact of compliance checks on compliance is difficult
                       because information such as reasons for filing delinquent
                       returns is currently not available. However, ITG office
                       management has completed one study and is planning



                       5
                         These figures were obtained from the ITG office Business
                       Performance Review and the ITG Inventory Database.
                       6
                         A measure of labor hours in which 1 Full-Time Equivalent is equal to
                       8 hours multiplied by the number of compensable days in a particular
                       fiscal year. For FY 2004, 1 Full-Time Equivalent was equal to
                       2,096 staff hours.
                       7
                         The Business Performance Review reported one less compliance check
                       than what was reflected in the ITG Inventory Database.
                       8
                         Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                       sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                                                                     Page 4
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                       another one to help identify general indicators of overall
                       compliance levels.
                       •   The TE/GE Division Research and Analysis Office
                           completed a study in April 2005 that examined issues
                           regarding employment tax noncompliance within one
                           market segment. The study analyzed the uncollected
                           assessment data from the Accounts Receivable Dollars
                           Inventory9 for four areas of concern. The study reached
                           the following conclusions.
                           ¾ The extensive range of uncollected balances (less
                             than $1 to more than $150,000) suggests
                             noncompliance may occur for different reasons.
                           ¾ In this market segment, the longer the tribal balance
                             remains unpaid, the greater the amount owed.
                           ¾ Demographic conditions, such as location, standard
                             of living, population, and tribal size may require
                             different outreach and education programs to address
                             noncompliance for this market segment.
                           The manager, OPR office, will use these general
                           indicators to determine the best approach for gaining
                           compliance within this market segment and hopes to test
                           remedies for the noncompliance. However, this study
                           will enable ITG office management to draw only broad
                           conclusions about the tribes and entities and does not
                           contain the detailed analysis necessary to determine
                           changes in compliance levels of individual customers.
                       •   ITG office management has drafted a research plan to
                           try to measure the impact compliance checks have on
                           overall compliance levels for their customers. They are
                           considering adding additional data elements, including
                           delinquent return and balance due information, to the
                           ITG Database to capture data that will be needed for the
                           analysis. They plan to obtain and track relevant
                           information, such as the compliance levels in tribes
                           where outreach was performed versus those that did not


                       9
                         The Accounts Receivable Dollars Inventory represents the total
                       dollar amount due for accounts with a debit balance on the Master File,
                       including any additional assessments plus all other accruals
                       (e.g., interest).
                                                                                       Page 5
             The Indian Tribal Governments Office Can Improve the Effectiveness,
                      Consistency, and Efficiency of Compliance Checks

                                       have any outreach. ITG office management had not yet
                                       started this effort at the time of our review but plans to
                                       complete their review during Calendar Year 2005.
                                    In addition, the IRS is not always aware of and cannot
                                    predict the external factors that may affect a tribal entity’s
                                    filing behavior. These external factors include periodic
                                    tribal management turnovers and the use of accountants, tax
                                    attorneys, or other highly experienced payroll specialists by
                                    some tribes versus tribes whose bookkeepers may be
                                    unfamiliar with the tax laws. These factors may affect the
                                    tribe’s filing behaviors, and it is difficult for the ITG office
                                    to identify and exclude the impact of these factors. For
                                    example, the ITG office cannot attribute an increase in a
                                    tribe’s filing behavior to the ITG office’s outreach and
                                    education efforts because it may be attributable to
                                    something else, such as the tribe hiring a more
                                    knowledgeable bookkeeper or accountant. The change in
                                    the filing (i.e., increased number of returns filed) is
                                    quantifiable; however, the reason for the change is not.
                                    The number of compliance checks completed each year is a
                                    valid measure to help ITG office management understand
                                    their customers and to identify the customers’ tax issues,
                                    problems, and concerns. However, they do not measure the
                                    impact on voluntary compliance. Until ITG office
                                    management can determine the impact compliance checks
                                    have on compliance, beyond the number of cases closed, the
                                    real value of the compliance check program cannot be
                                    determined. Because the ITG office is planning an
                                    additional study on the impact of compliance checks
                                    on overall compliance, we are not making any
                                    recommendations on this issue.
                                    We determined the ITG office field specialists generally
Compliance Checks Can Be
                                    followed ITG office management’s process for conducting
Performed More Effectively,
                                    compliance checks for our sample cases. This process
Consistently, and Efficiently
                                    should result in identification of any new or closed tribal
                                    business entities and a determination of the risk of
                                    noncompliance of certain key areas contained in the
                                    Compliance Check Report. If more specific assistance is
                                    needed by the tribe, the specialist can either provide the
                                    assistance during the visit or schedule an Education and
                                    Outreach visit for the future. In addition, if the tribe agrees
                                    to complete an obligation such as submission of a
                                                                                             Page 6
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                       delinquent return, or if an examination is needed, the OPR
                       office will schedule additional follow-up work for that tribal
                       entity.
                       However, the process did not ensure compliance checks
                       were consistently, timely, and efficiently worked; updates to
                       tribal entity information were documented in the
                       Compliance Check Report and monitored; and compliance
                       check results were used to objectively improve case
                       selection. In addition, ITG office management does not
                       have an adequate nationwide management information
                       system to monitor compliance checks assigned to the field
                       specialists.
                       Work performed on compliance checks was not always
                       consistent with office guidelines
                       ITG office management developed a Compliance Check
                       Report to ensure ITG office field specialists gathered
                       consistent information about tribal entities during
                       compliance checks. The Compliance Check Report outlines
                       the information that should be obtained during the
                       compliance check. It also provides a place for the field
                       specialist’s assessment of the compliance risk for the tribal
                       entity for employment tax, information and cash transaction
                       reporting, tip reporting, and excise taxes and any
                       recommendations for future activity needed for that tribal
                       entity.
                       We determined ITG office field specialists prepared
                       Compliance Check Reports for all compliance check cases
                       reviewed. However, we identified instances where
                       compliance checks were not completed but were reported as
                       such for FY 2004, items were not completed on the
                       Compliance Check Report, and other instances where a
                       significant number of delinquent returns were obtained and
                       processed, which is not the main focus of compliance
                       checks.




                                                                              Page 7
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                       •    The OPR office Quality Review (QR) function staff
                            determined 1 of the 5210 compliance checks in our
                            sample did not qualify for closure as a completed
                            compliance check. We also noted during our review of
                            the documentation for the 52 sample cases that the OPR
                            office QR function staff identified an additional
                            4 compliance checks closed in FY 2004 that did not
                            qualify as completed compliance checks. The five cases
                            did not qualify for the following reasons:
                            ¾ Two cases were surveyed (closed) before the
                              compliance checks were initiated. Generally, ITG
                              office management does not consider surveyed
                              compliance checks as completed compliance checks.
                              We determined there were other compliance checks
                              in the ITG Inventory Database11 that were closed as
                              surveys but not counted as completed compliance
                              checks.
                            ¾ Two cases indicated that the customers declined the
                              compliance checks.
                            ¾ One case was incomplete and the work did not
                              qualify the case as a compliance check.
                            After a case is sent to the OPR office QR function for
                            review, ITG office management generally does not send
                            it back to the field specialist to conduct additional work
                            or to correct any errors. The OPR office QR function
                            will correct any errors that can be corrected and send the
                            case to the OPR office Classification and Delivery
                            Specialist for closure. The OPR office QR function will
                            also notify the specialists through the group managers of



                       10
                          We selected a sample of 55 cases that were assigned and closed on the
                       ITG Inventory Database. However, compliance checks were not
                       conducted for three of the entities in our sample. One entity was an
                       exempt organization and not an ITG office customer, one entity was a
                       defunct business, and another entity declined to have a compliance
                       check conducted. Details of how we selected our sample cases are
                       included in Appendix I.
                       11
                          The ITG Inventory Database, which is a subset of the ITG Database,
                       was developed by the OPR office in FY 2001 to analyze filing and
                       payment characteristics and control nonexamination activities, such as
                       compliance checks and tip rate reviews.
                                                                                       Page 8
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                            the types of problems they are identifying, to prevent
                            similar problems from occurring in the future.
                            For the five cases determined by the OPR office QR
                            function to not qualify as completed compliance checks,
                            we noted they were included in the totals reported by
                            ITG office management as completed compliance
                            checks in FY 2004. An error in a database report
                            formula resulted in four of five incomplete cases
                            being reported as complete, and a case closing error
                            (i.e., incorrect closing code input to the ITG Inventory
                            Database) resulted in the fifth incomplete case being
                            reported as complete. We did not evaluate all closed
                            compliance checks for FY 2004, so we do not know the
                            full extent of this issue. However, errors in database
                            formulas and case closing errors can result in inaccurate
                            information reported from the ITG Database. This is
                            especially important in light of the ITG office’s annual
                            performance goal measuring the number of compliance
                            checks completed. For example, in FY 2004, ITG office
                            management’s performance goal was to complete
                            265 compliance checks and they reported completing
                            271 compliance check cases. With at least 5 of the
                            271 cases being incomplete or incorrectly included in
                            the number of completed compliance checks, ITG office
                            management is at risk of reporting overstated
                            accomplishments for compliance check cases.
                       •    The field specialists did not always include information
                            requiring updates to the ITG Database or the IRS Master
                            File,12 such as new tribal entities or changes to filing
                            requirements, on the Compliance Check Report. When
                            identifying new or changed information, ITG office field
                            specialists have the option of telephoning or emailing
                            the new information to the OPR office or including the
                            information on the Compliance Check Report. For the
                            cases in our sample, we could not determine how many
                            ITG office field specialists identified the need to update
                            information since this information may have been
                            emailed directly to the OPR office and not documented

                       12
                         The IRS database that stores various types of taxpayer account
                       information. This database includes individual, business, and employee
                       plans and exempt organizations data.
                                                                                      Page 9
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                            in the Compliance Check Report. However, in one case,
                            the ITG office field specialist documented on the
                            Compliance Check Report that updated information was
                            obtained and submitted an email requesting that an
                            Employer Identification Number be closed out. Another
                            email was sent approximately 9 weeks later as a
                            reminder. In another case, the follow-up email was sent
                            more than 6 months after the initial request to update
                            filing requirements. If the specific information to be
                            updated is not documented in the Compliance Check
                            Report, ITG office management cannot be assured the
                            updates will be completed. If the updates are not
                            completed timely, unnecessary notices could be sent to
                            the tribes.
                       •    ITG office field specialists obtained 344 delinquent
                            returns for 17 cases (16 tribal entities) related to the
                            cases in our sample. The effort to obtain delinquent
                            returns may have been time consuming because the ITG
                            office field specialists sometimes assisted in preparing
                            returns, shipping returns to the IRS submission
                            processing site,13 and processing payments. This work,
                            although important in the interest of promoting
                            voluntary compliance and for reducing the burden on
                            customers, meant the ITG office field specialists could
                            not do other ITG office case work.
                            The Small Business and Self-Employed (SB/SE)
                            Division is responsible for obtaining delinquent returns
                            for tribal entities in collection status. ITG office
                            management advised us the SB/SE Division may not
                            attempt to procure delinquent returns of tribal entities
                            because of the remote locations of some tribes and
                            because of other higher priority work. The ITG office
                            has responsibility for obtaining delinquent returns not
                            yet in collection status. Our review could not determine
                            if any of the 17 cases were in collection status at the
                            time of the compliance checks.



                       13
                         The IRS location that processes paper and electronic submissions,
                       corrects errors, and forwards data to the IRS Computing Centers for
                       analysis and posting to taxpayer accounts.
                                                                                     Page 10
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                          ITG office management advised us all IRS employees
                          have an obligation to address noncompliance, including
                          obtaining delinquent returns. The ITG office field
                          specialists attempt to obtain delinquent returns during a
                          compliance check, although this is not the sole purpose
                          or focus of compliance checks. Accepting delinquent
                          returns during a compliance check is viewed as a way of
                          providing better service to their customers and as an
                          opportunity to educate tribal entities on their filing
                          obligations. ITG office management was monitoring
                          compliance checks to ensure they were not held open
                          waiting on delinquent returns from the tribes. If the
                          specialist indicates that the tribal entity will be filing a
                          delinquent return, the OPR office Classification and
                          Delivery Specialist will create a follow-up item in the
                          ITG Inventory Database. After a reasonable period of
                          time, the IRS databases are researched to identify
                          whether the return has been filed. If the IRS databases
                          show the return has been received, the follow-up item is
                          closed; otherwise, additional work actions may be
                          considered.
                       Compliance check results are not used to objectively
                       improve case selection
                       The effectiveness of the compliance check case selection
                       process could be improved by incorporating the results of
                       completed compliance checks and the field specialists’
                       assessment of the risks of noncompliance into the data
                       analysis. This information is crucial to improving the
                       process of identifying the highest risk cases. From our
                       judgmental sample, we determined the actual compliance
                       risk as determined by the field specialists was often different
                       from what the analyses showed (e.g., most tribal entities
                       were determined to be at low risk of noncompliance instead
                       of the high risk that the data analyses showed). Because
                       compliance check results are not incorporated into the ITG
                       Inventory Database, the ITG office’s process will become
                       less reliable in identifying entities with the highest risk of
                       noncompliance. Further, the ITG office may not identify
                       the most significant compliance needs of its customers or
                       identify remedies for the most significant compliance issues.


                                                                              Page 11
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                       We reviewed a judgmental sample of 52 of the
                       272 compliance check cases closed in FY 2004. Most of the
                       cases included in our sample were scored at a high risk of
                       noncompliance by the OPR office Classification and
                       Delivery Specialist based on the analyses. Although the
                       data analyses identified these entities as high risk, after
                       completing the compliance checks, the field specialists
                       ranked most risk factors as either low risk or not applicable.
                       For example, 27 cases were selected by the OPR office
                       Classification and Delivery Specialist for compliance
                       checks based on one formula indicating a high risk of
                       noncompliance in one area. Upon completion of the
                       compliance checks, the field specialists rated only
                       two entities as a high risk for noncompliance in that area
                       and five entities for a high risk of noncompliance in two
                       other areas that had not been identified by the formula.
                       In addition, 12 of the 52 compliance check cases in our
                       sample were requested by the tribe or by the ITG office field
                       groups and, therefore, were not selected based on the OPR
                       office Classification and Delivery Specialist data analyses.
                       Twenty returns were secured by the field specialists in
                       three of these cases. However, only two of the three cases
                       had areas rated by the field specialists as high risk for
                       noncompliance. The remaining risk factors for these
                       12 cases were rated as low or not applicable.
                       As mentioned in the Background section of this report, we
                       conducted an earlier review of the ITG office’s process for
                       selecting compliance checks based on the risk of
                       noncompliance. Based on the results of this audit, we have
                       determined that the selection process needs improvement to
                       better identify high-risk areas. We are further developing
                       this issue in another audit;14 therefore, we did not make any
                       recommendations in this report related to this issue.




                       14
                         The Indian Tribal Governments Office Should Reevaluate the
                       Compliance Check Program to Make the Best Use of Its Limited
                       Resources (Draft report dated August 16, 2005).
                                                                                  Page 12
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                       Compliance check cases were under management
                       control, but the process for tracking cases is not effective
                       or efficient
                       The sample of compliance checks we reviewed was under
                       ITG office management’s control throughout the process
                       from assignment through case closure. While this was
                       important for physical inventory control, the database used
                       to track cases through the compliance check process was not
                       an effective or efficient tool for monitoring the progress of
                       cases. Specifically, the database identifies the field
                       specialists that compliance checks are assigned to but does
                       not provide the current status of actions taken to complete
                       the cases.
                       After creation of the ITG office in FY 2000, ITG office
                       management developed several stand-alone databases to
                       manage the ITG office workload and to maintain
                       information that had been collected on ITG office tribes.
                       ITG office management advised us these databases perform
                       their individual functionality well and, collectively, they
                       have contributed to a reduction in cycle time. However, the
                       databases cannot be considered a nationwide management
                       information system that provides the necessary inventory
                       control over all case work. The databases are not integrated
                       and do not allow updates of status information between the
                       databases. This makes the process labor intensive for the
                       management staff to determine why cases do not progress
                       efficiently and what assistance the specialist or manager
                       may need to keep the case on track.
                       We determined the following from our review of a sample
                       of 52 of the 272 compliance check cases closed in FY 2004:
                       •   The ITG Inventory Database is used as a master
                           inventory listing for controlling compliance checks
                           while they are being worked. This Database is
                           maintained by the OPR office and is primarily used at
                           the Headquarters level. Reports and listings of case
                           inventory are generated to monitor compliance check
                           inventory and to periodically reconcile the OPR office’s
                           records with the inventory in the field offices.
                       •   Each of the five field group managers has a database,
                           separate from the ITG Database, to control cases in the
                                                                            Page 13
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                            group’s inventory. The databases list all work ongoing
                            in the groups, including examinations, outreach
                            activities, and compliance checks. These databases were
                            developed by the OPR office for the five ITG office
                            field groups and contain information, such as the current
                            status of case work, that is not included on the ITG
                            Inventory Database.
                       •    Document Transmittals15 (Form 3210) were generally
                            used to transfer all cases from originating to receiving
                            offices. The originating office either prepared the
                            Forms 3210 manually or prepared and printed the
                            Forms 3210 from a template on its computer.
                       Because the ITG Inventory Database does not track the
                       status of compliance check cases after cases are sent to
                       field groups, ITG office management decided to manually
                       monitor cases to better control work in progress and reduce
                       the length of time cases are open. During the second quarter
                       of FY 2004, the OPR office began generating a report
                       containing a listing of each group’s inventory (for example
                       compliance check and examination cases) for the
                       Director, ITG. This new inventory report is an example of
                       an improvement ITG office management has made to the
                       ITG Inventory Database and resulted in the decrease in
                       overall cycle time for compliance checks. The Director
                       calls each group manager approximately every 2 months to
                       discuss the group’s inventory and progress on cases. One
                       example of why it may be beneficial to call the group
                       manager would be on a case that has been open for an
                       extended period of time because the particular field
                       specialist was working on a higher priority special project
                       rather than the case. While we recognize there will always
                       be a need for management to conduct workload reviews,
                       enhancement of the Database structure to include
                       incremental cycle time data would allow for a more targeted
                       discussion and could lead to improved productivity gains.
                       At present, the ITG office captures incremental cycle time


                       15
                         Transmittal documents list the specific cases being sent by the
                       originating office and enable the receiving office to confirm receipt of
                       the cases using the same document. The recipient should verify receipt
                       of the specific items listed, sign and date the acknowledgement copy,
                       and mail the acknowledgement copy back to the originator.
                                                                                       Page 14
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                       data on closed cases only. Expanding tracking to include
                       open inventory would improve the currency of cycle time
                       data and allow for an expedited improvement where
                       opportunities are found.
                       ITG office management advised us they are not planning on
                       expanding the functionality of their databases because the
                       TE/GE Division Reporting and Electronic Examination
                       System will provide case management, inventory control,
                       and routing capabilities. However, at the time of our
                       review, the TE/GE Division Reporting and Electronic
                       Examination System was still in development and is not
                       scheduled to be piloted until January 2006. The pilot is
                       scheduled for a limited number of groups within the TE/GE
                       Division and will have only limited capability.
                       The time period for completing compliance checks can
                       be reduced further
                       Prior to the third quarter of FY 2003, the OPR office
                       Classification and Delivery Specialist assigned all entities
                       within an Indian tribe as one compliance check. This
                       practice resulted in more time required to complete
                       compliance checks because many tribes owned multiple
                       entities. During the third quarter of FY 2003, the ITG office
                       changed from assigning compliance checks for the entire
                       tribe to assigning compliance checks to individual entities
                       within a tribe. As a result of reviewing only one entity and
                       ITG office management’s emphasis on reducing the time to
                       complete compliance checks, we determined the time it
                       takes to initiate, execute, and close compliance check cases
                       has been significantly reduced.
                       The ITG Inventory Database includes the dates the
                       compliance checks are assigned to the groups and when they
                       are completed. We evaluated the length of time compliance
                       check cases were open from OPR office selection to closure
                       for the population of 47616 closed compliance check cases in
                       the ITG Inventory Database. We compared the time periods
                       for compliance checks initiated from the third quarter of

                       16
                         There were 481 closed compliance checks in the ITG Inventory
                       Database. Four cases were initiated during FY 2001, and one case was
                       initiated during the fourth quarter of FY 2004, so we dropped them from
                       this analysis.
                                                                                     Page 15
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                       FY 2002 through the third quarter of FY 2004. Figure 1
                       reflects the significant decrease in the amount of time to
                       complete a compliance check, from an average of 390 days
                       for those initiated in the third quarter of FY 2002 to an
                       average of 123 days for those initiated in the third quarter of
                       FY 2004.
                                    Figure 1: Closed Compliance Check Cases
                                     Average Number of Calendar Days Open
                                               by Quarter Initiated


                             450
                             400
                             350
                             300
                        Days
                             250
                        Open
                             200
                             150
                             100
                              50
                               0
                                    3Q     4Q     1Q      2Q       3Q         4Q     1Q     2Q      3Q
                                   FY02   FY02   FY03    FY03     FY03       FY03   FY04   FY04    FY04
                                                         Quarter Initiated

                                                        Average Days Open

                       Source: Analysis of ITG Inventory Database.

                       In evaluating the length of time for the ITG office to
                       complete compliance checks, we identified one additional
                       opportunity to further reduce the overall time period. From
                       our sample, we compared the 27 cases initiated prior to the
                       third quarter of FY 2003 to the 19 cases initiated during or
                       after the third quarter of FY 2003. Our analysis focused on
                       the amount of time taken to complete each step of the
                       compliance check process. These dates were not always
                       maintained in the ITG Inventory Database or the field
                       groups’ databases, so we obtained them through our review
                       of the sample cases and document transmittals used when
                       the cases were shipped between ITG offices.
                       The results of our analyses are displayed in Figure 2.




                                                                                                  Page 16
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                            Figure 2: Analyses of Sample Compliance Check Cases Initiated
                              Prior to and During or After the Third Quarter of FY 200317
                                                           Average
                                                        Calendar Days            Average
                                                            Before           Calendar Days for
                         Steps in the Compliance        Third Quarter        Third Quarter of
                               Check Process             of FY 2003          FY 2003 or After
                        Group Manager Receipt to
                        Field Specialist
                        Assignment                                     27                         9
                        Field Specialist Receipt to
                        First Contact with the Tribe                  155                    108
                        Tribal Contact to Start Date                   81                     32
                        Start Date to Completion
                        by Field Specialist                           146                         49
                        Group Manager Review                            4                          6
                        Quality Review                                  7                         12
                        Total Average Days To
                        Complete Above Steps                          453                    248
                        Longest Open                               711                    444
                        Shortest Open                              279                    105
                       Source: Analysis of Treasury Inspector General for Tax
                       Administration’s sample of ITG office compliance check case files.

                       Figure 2 notes a significant decrease in the average number
                       of days for most categories tested. The total average
                       number of days decreased from 453 days (approximately
                       15 months) prior to the third quarter of FY 2003 to 248 days
                       (approximately 8 months) for cases initiated during or after
                       the third quarter of FY 2003. This is an average decrease of
                       205 days (approximately 7 months) per case. The slight
                       increase in time for the QR function was caused by a
                       reduction in the QR function staff during the last half of
                       FY 2004.
                       The one step in the process with the potential for further
                       reduction is making initial contact with the tribe. Although
                       there was a decrease from 155 to 108 days for the field
                       specialists to contact the tribes, this is longer than what
                       group managers expect. However, because this time period


                       17
                         The number of days for the categories tested will not add up to the
                       total average days open because the time required to mail cases from
                       one location to another is not included in the individual steps, but the
                       mail time is included in the total average days open.
                                                                                         Page 17
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                       is not tracked on the ITG Inventory Database, ITG office
                       management was not aware of the extent of these delays in
                       contacting the tribes. ITG office management advised us
                       their practice is to order compliance check cases when their
                       groups needed work. In addition, although the ITG office
                       field specialists normally research IRS databases to obtain
                       the current status of the tribal entity’s account before they
                       contact the tribe, the group managers generally expect their
                       field specialists to initiate the cases as soon as possible.
                       One group manager expected cases to be initiated within
                       30 to 45 days. There are currently no time standards for the
                       ITG office field specialists to initiate contact with the tribes
                       for compliance check cases.
                       Automatically creating electronic Forms 3210 should
                       result in more efficient handling of cases
                       ITG office managers and employees prepare Forms 3210 by
                       manually preparing the Form 3210 or by preparing a
                       computer template. When preparing the document, all
                       information must be typed or written in. However, use of
                       current technology would improve the efficiency of
                       preparing Forms 3210 for compliance checks or other cases
                       that need to be transferred between offices, such as
                       examinations.
                       The information needed to complete preparation of
                       Forms 3210 is stored in the ITG Database. These data fields
                       include the entity name, Employer Identification Number,
                       date, control number, etc. Form 3210 templates could be
                       created in a computer database report format and drop down
                       menus added for the specific tribal information for each
                       field group. Creating the Forms 3210 in a database
                       environment would not only increase the efficiency of
                       creating the Forms 3210 and the accuracy of information on
                       the Forms 3210, it would make them more consistent and
                       create an electronic rather than a paper record of the case
                       movement between offices.

                       Recommendations

                       The Director, ITG, TE/GE Division, should:
                       1. Correct the data in the ITG Inventory Database for the
                          compliance check cases that were closed with the
                                                                               Page 18
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                          incorrect closing code and revise the formula in the ITG
                          Database that calculates the number of completed
                          compliance checks.
                       Management’s Response: ITG office management
                       corrected the data for the compliance check cases that were
                       closed with the incorrect closing code and revised the ITG
                       Database formula that calculates the number of completed
                       compliance checks.
                       2. Require information identified during compliance
                          checks that should be used to update the ITG Database
                          or the IRS Master File to be recorded on the Compliance
                          Check Report. This new requirement would not affect
                          the practice of emailing the information to the OPR
                          office.
                       Management’s Response: ITG office management is in the
                       process of revising the ITG office work templates. The
                       revised Compliance Check template will include a summary
                       sheet to capture all of the data updates reported during the
                       compliance check.
                       3. Clarify the expectation of contacting tribes as soon as
                          possible by establishing time standards for the field
                          groups to initiate compliance checks.
                       Management’s Response: The ITG Director issued
                       guidance requiring initial customer contact within 60 days
                       of case assignment to the group.
                       4. Consider automating the document transmittal process.
                       Management’s Response: TE/GE Division management
                       considered automating the document transmittal process and
                       decided to address this issue during future development of
                       the TE/GE Division Reporting and Electronic Examination
                       System.




                                                                            Page 19
             The Indian Tribal Governments Office Can Improve the Effectiveness,
                      Consistency, and Efficiency of Compliance Checks

                                                                                                     Appendix I


                         Detailed Objectives, Scope, and Methodology

Our overall objectives were to determine whether the Indian Tribal Governments (ITG) office
executes compliance checks effectively and consistently to better understand its customers and to
identify appropriate remedies for compliance issues and has developed a methodology for
measuring the impact of compliance checks on its customer base.
To accomplish these objectives, we:
I.      Determined whether ITG office management has established guidelines for effective and
        consistent control and execution of compliance checks and scheduling of follow-up
        activities, as appropriate.
        A. Interviewed ITG office management and ITG office field group managers to identify
           their procedures for effective and consistent control and execution of compliance
           checks and scheduling of follow-up activities, when appropriate.
        B. Researched the Internal Revenue Manual to identify documented procedures for
           effective and consistent control and execution of compliance checks and scheduling
           of follow-up activities, when appropriate.
        C. Developed flowcharts to gain an understanding of ITG office management’s process
           for the control and execution of the compliance checks and the scheduling and
           completion of follow-up activities.
II.     Determined the effectiveness and consistency of the control and execution of compliance
        checks and scheduling of follow-up activities.
        A. Obtained the most current ITG Inventory Database1 to identify the compliance checks
           closed during Fiscal Year (FY) 2004 and the Quality Review function database.
        B. Selected a judgmental sample of 522 compliance check cases, out of the 272 closed
           during FY 2004, from the ITG Inventory Database for review. This sample was
           selected by taking 10 cases from each of the 3 ITG office market segments (Alaska
           Tribes, Gaming, and Nongaming) and 5 cases from each of the 5 field groups. We
           selected the sample judgmentally due to time constraints.


1
  The ITG Inventory Database, which is a subset of the ITG Database, was developed by the Outreach, Planning,
and Review office in Fiscal Year 2001 to analyze filing and payment characteristics and control nonexamination
activities, such as compliance checks and tip rate reviews.
2
  We selected a sample of 55 cases that were assigned and closed on the ITG Inventory Database. However,
compliance checks were not conducted for three of the entities in our sample. One entity was an exempt
organization and not an ITG office customer, one entity was a defunct business, and another entity declined to have
a compliance check conducted.
                                                                                                           Page 20
          The Indian Tribal Governments Office Can Improve the Effectiveness,
                   Consistency, and Efficiency of Compliance Checks

       C. Determined whether the inventory controls were operating as intended to provide
          assurance that compliance checks were under management’s control at the following
          transfer points: from the ITG Outreach, Planning, and Review (OPR) office to the
          field group manager, from the field group manager to the ITG office field specialist,
          from the ITG office field specialist to the group manager, from the group manager to
          the Quality Review function, and from the Quality Review function to the OPR office
          for database update and case closure. We evaluated delays in transferring the
          compliance checks between the transfer points.
       D. Evaluated the Compliance Check Reports for the sample of cases to determine
          whether the compliance check reviews were complete and consistent according to
          ITG office guidelines.
       E. Selected all 18 compliance check cases with recommended follow-up activities
          indicated on the Database, from the 272 cases closed during FY 2004, and determined
          whether the follow-up activities had been scheduled and completed.
III.   Determined whether ITG office management has established basic goals for FY 2005 for
       the compliance check program and developed a methodology to measure the
       effectiveness of their compliance check process and the impact their compliance check
       process has on improving compliance in their customer base.
       A. Determined whether ITG office management has developed a method to measure
          compliance levels in their customer base.
       B. Determined whether the ITG office has developed a method to measure the impact
          their compliance check process has on overall compliance.
       C. Determined whether the ITG office established numeric goals for compliance checks
          completed and whether this goal has been met in the past.
       D. Determined whether there is a time standard for completing compliance checks, either
          formal or informal.
       E. Determined whether there is a time standard for completing recommended follow-up
          actions.




                                                                                       Page 21
          The Indian Tribal Governments Office Can Improve the Effectiveness,
                   Consistency, and Efficiency of Compliance Checks

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
Gerald T. Hawkins, Audit Manager
Andrew J. Burns, Lead Auditor
Julia M. Collins, Senior Auditor
Jeffery A. Smith, Senior Auditor
Michael A. McGovern, Auditor




                                                                                      Page 22
          The Indian Tribal Governments Office Can Improve the Effectiveness,
                   Consistency, and Efficiency of Compliance Checks

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner, Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Indian Tribal Governments, Tax Exempt and Government Entities Division
SE:T:GE:ITG
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 23
           The Indian Tribal Governments Office Can Improve the Effectiveness,
                    Consistency, and Efficiency of Compliance Checks

                                                                                     Appendix IV


                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Reliability of Information – Actual; five compliance check cases for five Indian tribal entities
    erroneously included in counts of completed compliance checks (see page 6).
Methodology Used to Measure the Reported Benefit:
We identified that the Quality Review staff of the Indian Tribal Governments (ITG) Outreach,
Planning, and Review office determined 5 of the 272 compliance checks closed in Fiscal
Year 2004 did not qualify for closure as completed compliance checks. However, these five
cases were included in the number of completed compliance checks reported in
Fiscal Year 2004. The five cases did not qualify for the following reasons:
•   Two cases were surveyed (closed) before the compliance checks were initiated. Generally,
    ITG office management does not consider surveyed compliance checks as closed compliance
    checks. We determined there were many other compliance checks in the ITG office’s
    database that were closed as surveys but not counted as closed compliance checks.
•   Two cases indicated the customers declined the compliance checks.
•   One case was incomplete, and the work did not qualify the case as a compliance check.




                                                                                            Page 24
             The Indian Tribal Governments Office Can Improve the Effectiveness,
                      Consistency, and Efficiency of Compliance Checks

                                                                                                     Appendix V



              Indian Tribal Governments Office Compliance Check Process

A compliance check is a review conducted by an Indian Tribal Governments (ITG) office field
specialist under Title 26 of the Internal Revenue Code. It is not an examination of books and
records. Rather, it represents an opportunity for the ITG office field specialist to better
understand the customer through both a review of the customer’s filing requirements, as well as a
discussion of the customer’s tax issues, problems, and concerns. Guidelines for conducting
compliance checks are in the Internal Revenue Manual.
A compliance check is clearly different from an examination1 or an audit in that it does not
seek to make a determination of tax liability. The ITG office field specialists are instructed to
inform the taxpayer that a compliance check does not qualify as an inspection under
Section 7605(b) of the Internal Revenue Code2 or as an audit for purposes of Section 530 of the
Revenue Act of 1978.3 The scope of the compliance check is limited to a check of documents
that have already been voluntarily supplied to the Internal Revenue Service (IRS) or
informational forms that are not actually in the IRS’ possession (e.g., Employee’s Withholding
Certificate (Form W-4)). The taxpayer’s books and records should not be requested or
examined. Compliance checks are voluntary, and taxpayers can decline the compliance check.
The Outreach, Planning, and Review (OPR) office Classification and Delivery Specialist
identifies tribal entities most in need of compliance checks, creates the case files, and sends them
to the field groups. The group managers assign the cases to their field specialists to conduct the
compliance checks. The ITG office field specialists document the results of the compliance
checks in the Compliance Check Report template. The template includes the following
information:
•   Tribal contacts, activities, and Employer Identification Numbers for tribal-related enterprises.
•   Assessment of the compliance risk for employment tax, information reporting,
    anti-money laundering statute violations, tip reporting, and excise tax.
•   Customer concerns and requests for assistance.
•   Recommendations for future activity (e.g., examinations, and education and outreach).
•   A closing letter to the tribe, sent by the Quality Review (QR) function staff.


1
  An examination or audit is a review of an entity’s books and records for the purpose of determining the correct tax
liability.
2
  26 U.S.C. § 7605(b) (1988).
3
  Section 530 of the Revenue Act of 1978, Public Law 96-600, 92 Stat. 2885 (1978) as amended by Public Law
96-167, 93 Stat. 1278 (1979); Public Law 96-541, 95 Stat. 3204 (1980); Public law 97-248, 96 Stat. 552 (1982); and
Public Law 104-188, 110 Stat. 1766 (1996).
                                                                                                            Page 25
             The Indian Tribal Governments Office Can Improve the Effectiveness,
                      Consistency, and Efficiency of Compliance Checks

If the ITG office field specialist determines the tribe is not fully complying with its filing and
payment responsibilities, the field specialist can take one or more of the following actions:
•   Work to correct minor problems immediately.
•   Schedule another visit to follow up with additional outreach or other action to assist the
    taxpayer.
•   Propose an examination when warranted.
Upon completion of the compliance check, the field specialist returns the case to the group
manager where it is reviewed for completeness. The manager then forwards the case to the OPR
office QR function where the case is further reviewed using written Quality Standards. All
compliance checks are subject to quality review. The QR function staff evaluates the ITG office
field specialist’s documentation and actions based on established standards. If the QR function
identifies problems with the compliance check that require additional work by the field
specialist, the compliance check is returned to the field. If no problems requiring additional
work are identified, the closing letter is mailed to the tribe, and the compliance check is sent to
the ITG office Classification and Delivery Specialist for closure in the ITG Inventory Database.4
Closing actions include updates to the ITG Inventory Database such as adding new entities,
deleting entities that are no longer owned by the tribe, updating filing requirements, and updating
tribal contacts. The ITG office Classification and Delivery Specialist also inputs and tracks
actions identified during the compliance checks for later follow-up, such as monitoring accounts
to determine whether returns have been filed.




4
 The ITG Inventory Database, which is a subset of the ITG Database, was developed by the OPR office in Fiscal
Year 2001 to analyze filing and payment characteristics and control nonexamination activities, such as compliance
checks and tip rate reviews.
                                                                                                          Page 26
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks

                                                               Appendix VI



         Management’s Response to the Draft Report




                                                                      Page 27
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks




                                                                      Page 28
The Indian Tribal Governments Office Can Improve the Effectiveness,
         Consistency, and Efficiency of Compliance Checks




                                                                      Page 29
